                   EDGAR HARDSHIP
                     EXEMPTIONS

                       EXECUTIVE SUMMARY
The hardship exemption rules in Regulation S-T (17 CFR 232.201 and .202) allow filers,
under certain conditions, to submit their filings and exhibits in paper form instead of
electronically. These rules help ensure the completeness of the EDGAR database while
allowing filers that encounter problems filing electronically to submit their filings by their
due dates.

The Divisions of Corporation Finance’s (CF) and Investment Management’s (IM)
procedures related to receipt and review of continuing hardship exemption requests
generally appear adequate to ensure that continuing hardship exemptions are justified.
Also, CF is improving its continuing hardship exemption tracking system.

The Office of Filings and Information Services’ (OFIS) procedures for screening paper
filings generally appear adequate to ensure that the Commission accepts only properly
submitted paper filings. OFIS also attempts to help filers properly resubmit their rejected
paper filings.

To improve compliance with the hardship exemption rules, internal controls to ensure
that submission of electronic confirming copies of filings and exhibits under the hardship
exemption rules and resubmission of rejected filings should be enhanced. There is
currently no routine follow-up to ensure that these filings are submitted.

Also, the electronic filing rules should be clarified to require that the exhibit indices in
electronic filings identify all exhibits filed in paper and confirming copies, not just those
subject to hardship exemptions. The lack of references in electronic filings to exhibits
filed in paper makes it more difficult for the public to locate the exhibits. In addition, the
Form SE needs to include more information (e.g., the applicable hardship exemption or
other rule allowing the paper filing).


         Objectives, Scope, and Methodology
The objective of this audit was to evaluate the Commission’s effectiveness in ensuring
compliance with the hardship exemption rules. We reviewed applicable regulations and
procedures and interviewed appropriate staff in the Divisions of Corporation Finance
(CF) and Investment Management (IM), and in the Office of Filings and Information
Services (OFIS).


Edgar Hardship Exemptions (Audit 308)                                         March 30,
2000
                                                                                                                                                            Page     2


We reviewed filings on a judgment sample basis that were submitted between January
1998 and September 1999 pursuant to hardship exemptions. Also, we obtained
information on filings rejected between January 1998 and November 1999. We
compared this information, as applicable, to information from the Commission’s WRKD
(workload) system, electronic source filings in the Commission’s Electronic Data
Gathering, Analysis, and Retrieval (EDGAR)1 system, and to source paper filings in
OFIS. The audit was performed between September 1999 and February 2000, in
accordance with generally accepted government auditing standards.


                                                              Background
The temporary and continuing hardship exemption rules in Regulation S-T (17 C.F.R.
232.201 and 202) allow registrants who are otherwise required to submit their filings
electronically to the EDGAR system (electronic filers) to file in paper under certain
conditions. Also, Rule 14 (17 C.F.R. 232.14), effective January 1998, does not allow the
submission in paper form of any filing for which Regulation S-T requires electronic filing
absent a temporary or continuing hardship exemption. CF and IM have delegated
authority to approve or deny requests for hardship exemptions.
An electronic filer may take a temporary hardship exemption when unanticipated
technical difficulties prevent them from timely submitting their electronic filing. To take
the exemption, the electronic filer must submit the filing under cover of Form TH
(Notification of Reliance on Temporary Hardship Exemption) no later than one business
day after the filing due date. This exemption is automatic, and gives the electronic filer
six business days to submit an electronic copy of the filing or exhibit (confirming copy) to
the EDGAR system. CF, IM, and OFIS do not review the Form TH.

Regulation S-T also allows a continuing hardship exemption to electronic filers who
show that they cannot submit their filings electronically without undue burden or
expense. Electronic filers must request this exemption at least ten business days before
the filing due date. CF and IM review and approve or deny these requests. If the
exemption is granted, the filers must submit the affected documents by the filing due
date. If the exemption is denied, the filers must submit the documents electronically.
The rule does not include time frames for the expiration of the continuing exemption, nor
does it require confirming copies. The divisions may, however, establish expiration
dates and due dates for submission of confirming copies as appropriate.

Electronic filers must use Form SE (Form for Submission of Paper Format Exhibits) to
submit paper exhibits associated with electronic filings. For temporary hardship
exemptions, the exhibits must be filed under cover of form SE no later than one business
day after the filing date. For continuing exemptions, the exhibits must be filed by the due
date. CF, IM, and OFIS do not review the Form SE.

Electronic filers may also use Form SE to submit certain exhibits in paper without
hardship exemptions. These include: exhibits, originally filed in paper form, relating to

1
    The EDGAR system is an electronic database containing filings required by the Commission in accordance
     with the securities laws (securities registration filings, annual reports, etc.). The public may access the
     filings in EDGAR through the Internet at no cost after the filing has been in the database for 24 hours.
__________________________________________________________________________________________________________________________________________________________________

Edgar Hardship Exemptions (Audit 308)                                                                                                      March 30, 2000
                                                                                                                                                            Page     3


schedules of beneficial ownership or tender offers; certain computational materials filed
as exhibits to Form 8-K; and annual reports to security holders filed by public utility
holding companies.

Companies that do not comply with Regulation S-T are ineligible to use short-form
securities registration forms S-3 and S-8 and may not incorporate the paper filings into
an electronic filing by reference. Also, filers are subject to the applicable legal
consequences for failing to make the particular filing or for making the filing after the due
date.

CF’s Office of EDGAR & Information Analysis (OEIA) receives the requests for
continuing hardship exemptions. A staff person performs an initial review of the request
and inputs it into an automated database. The staff then forwards the request to either
the Chief of OIEA or the Associate Director for Regulatory Policy for approval or denial.
CF developed written guidance for review of continuing hardship requests.

Within IM, two separate offices handle requests for continuing hardship exemptions.
The Senior Special Counsel, Office of the Associate Director for Legal and Disclosure,
reviews, approves, or denies requests submitted by investment companies (including
variable insurance products). The Office of Public Utility Regulation handles requests
submitted by public utility holding companies. IM has no automated database of
continuing exemptions. Also, in reviewing requests, IM is referring to the continuing
hardship exemption rules in Regulation S-T instead of developing its own written
procedures because it has not received many requests (six between1998 and 1999).

OFIS’s Filer Support II branch receives and screens paper filings and exhibits submitted
to the Commission and rejects improperly submitted paper filings. It developed written
procedures to guide the staff in processing the paper filings. Prior to rejecting the filing,
senior OFIS staff contact the filers (or filing agents) to determine if they can assist them
in resubmitting the filing electronically. When OFIS rejects the paper filing, it sends a
letter of rejection that also reminds the filer of their filing obligations. OFIS maintains a
file of the paper documentation related to each filing rejected.

Approximately 186,000 filings were submitted between January 1998 (when Rule 14
became effective) and September 1999. During this period, approximately 390 filings
were submitted in paper pursuant to hardship exemptions. Approximately 4400 exhibits
were filed in paper under cover of Form SE. We could not determine the number of
exhibits filed pursuant to hardship exemptions because the Form SE does not provide
this information. Also, approximately 2,300 filings were rejected between January 1,
1998 and November 30, 1999.

During this period, CF received approximately 72 requests for continuing hardship
exemptions in 1999 and granted 64. In 1998, it received 128 requests and approved
111. IM received and approved approximately six requests for continuing hardship
exemptions between 1998 and 1999. Also, the Commission received approximately 84
temporary hardship exemptions on Form TH in 1999 (to September 1999) and 131 in
1998.




__________________________________________________________________________________________________________________________________________________________________

Edgar Hardship Exemptions (Audit 308)                                                                                                      March 30, 2000
                                                                                                                                                            Page     4



                                                           Audit Results
Controls to ensure that continuing hardship exemptions are granted according to
Regulation S-T generally appear adequate. Also, controls to ensure that filers submit
paper filings according to Regulation S-T generally appear adequate.

Controls to ensure that filers submit confirming electronic filings and resubmit rejected
filings, however, need improvement. CF, IM, and OFIS do not routinely ensure that
electronic filers submit their electronic confirming copies or resubmit rejected filings.

Regulation S-T needs clarification to require that electronic filers identify all their exhibits
filed in paper and to provide whether paper exhibits filed under a temporary hardship
exemption should be filed under cover of Form TH or SE or both. Also, Form SE needs
to identify the rule in Regulation S-T that allowed the paper filing of the exhibit.


RESUBMISSION OF FILINGS

To determine whether companies submitted confirming electronic copies, we obtained a
list of approximately 215 Form THs filed between January 1998 and September 1999
from the Commission’s WRKD system. We could not find confirming copies in the
EDGAR system for approximately 61 (28%) of the 215 Form THs, suggesting that in
some cases electronic confirming copies were not submitted.

Also, we obtained documentation on 114 paper filings rejected by OFIS between July
1999 and November 1999 because they were not in compliance with Regulation S-T.
We researched the EDGAR system to determine if these filings were resubmitted. We
could not find evidence of resubmission for 31 of the rejected filings (approximately
27%).

CF and IM did not follow up on every temporary hardship filing because of the volume of
other filings coming in for review. When CF and IM select filings for review that were filed
under cover of Form TH, they inform the filers of their obligation to submit the confirming
copies as appropriate. There is no follow up by CF, IM, or OFIS on rejected filings.

The EDGAR database is incomplete to the extent that confirming copies are not
submitted and rejected filings are not resubmitted, making it more difficult for the public
to obtain the information. If filers do not submit electronic confirming copies, the public
must pay to obtain copies of the desired paper filing and sometimes wait days for
delivery of the copies. If filers do not resubmit rejected filings, the filing is never made
with the Commission and the information will not be publicly available.

The number of filings and exhibits affected is small compared to the total number of
filings submitted. Each filing and exhibit filed in paper, however, represents information
delayed or potentially denied (if the public can not locate the filing or exhibit) to the
public.



__________________________________________________________________________________________________________________________________________________________________

Edgar Hardship Exemptions (Audit 308)                                                                                                      March 30, 2000
                                                                                                                                                            Page     5


OFIS currently has to telephone CF to verify continuing hardships. On-line access to
CF’s database of continuing hardships would enhance their ability to process paper
filings.

In a 1996 audit memorandum, the OIG pointed out that penalties imposed by Regulation
S-T for improper paper filings were not implemented.2 With the current levels of follow-
up, it would still be difficult to implement these penalties.

The EDGAR system could help ensure compliance with the hardship exemption rules.
The EDGAR modernization project already includes developing capabilities to match
paper filing information with electronic confirming copies. For example, it will store paper
filing header data input manually by OFIS staff. Also, it will look for the file number of the
paper copy in the electronic confirming copy.

Recommendation A
The Divisions of Corporation Finance and Investment Management, and the Office of
Filings and Information Services, should coordinate to develop and implement
procedures (e.g., spot-checks) to ensure that confirming copies of filings submitted
pursuant to temporary hardship exemptions, as well as rejected filings, are submitted
electronically according to Regulation S-T.

Recommendation B
The Office of Information Technology should ensure that the modernized EDGAR
system includes the capability to identify filings and exhibits subject to hardship
exemptions, link or match filings to the associated confirming copies, and provide
information that will enable the staff to enforce the EDGAR filing eligibility rules.
The Office of Information Technology has already considered this issue, and is looking
at ways to use the capabilities of the modernized EDGAR to help track temporary
hardship exemptions and confirming copies.

Recommendation C
The Division of Corporation Finance should request that the Office of Information
Technology develop and implement the necessary programming to give the Office of
Filings and Information Services the appropriate access to the database of continuing
hardship exemptions.


EXHIBITS

Regulation S-T requires that filers identify the exhibits that they file in paper pursuant to
hardship exemptions. They are to annotate the exhibit index of the applicable electronic
filing with the letter “P” for exhibits filed in paper pursuant to hardship exemptions and
with “CE” for exhibits filed electronically elsewhere as confirming copies (confirming
copies of exhibits should be filed as amendments to the related filing). These notations

2
    Office of Inspector General Audit Memorandum No. 6, page 3.
__________________________________________________________________________________________________________________________________________________________________

Edgar Hardship Exemptions (Audit 308)                                                                                                      March 30, 2000
                                                                                                                                                            Page     6


in the exhibit index ensure that the public can locate and view exhibits submitted
separately from the filing.

On the other hand, electronic filers do not have to identify exhibits allowed in paper form
under other provisions of Regulation S-T. The lack of references in the electronic filing
to these exhibits makes it more difficult for the public to locate them.

Also, Form SE is a cover page that includes the form type to which the exhibit relates as
well as the name, address, and signature of the filer. It does not provide information on
the specific rule in Regulation S-T relied upon in submitting the exhibit in paper or
identify it as made pursuant to a temporary or continuing hardship exemption. As a
result, it is more difficult for OFIS staff to determine if the exhibit was properly filed in
paper. Also, it is more difficult for CF and IM to identify the exhibits for which electronic
confirming copies will be required.


Recommendation D
In connection with upcoming EDGAR modernization rulemaking, the Divisions of
Corporation Finance and Investment Management should recommend that the
Commission modify Rule 102(d) of Regulation S-T regarding references to paper filings
in the electronic filings’ exhibit indices to require references to all exhibits filed in paper.
Also, these Divisions should coordinate to determine whether rule 201(a) of Regulation
S-T should require filers to submit exhibits filed in paper pursuant to a temporary
hardship exemption under cover of Form TH, Form SE, or both, and recommend the
appropriate rule change to the Commission.

Recommendation E
The Divisions of Corporation Finance, Investment Management, and the Office of Filings
and Information Services should jointly identify the information that would make the
Form SE more useful (e.g., identify the applicable rule in Regulation S-T allowing the
exhibit to be filed in paper). They should then, in connection with upcoming EDGAR
rulemaking, recommend that the Commission modify the form as appropriate.




__________________________________________________________________________________________________________________________________________________________________

Edgar Hardship Exemptions (Audit 308)                                                                                                      March 30, 2000
